20-8360
IN THE
SUPREME COURT OF THE UNITED STATES

RAFAEL VERDEJO RUIZ, Petitioner
v.
UNITED STATES, Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

FILED
MAY 2 8 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

PETITION FOR WRIT OF CERTIORARI

Rafael Verdejo Ruiz #17670-035
FCI Texarkana
P.O. BOX 7000
Texarkana, TX 75505

RECEIVED
JUN - 4 2021

t
QUESTIONS PRESENTED
I.
WAS MILITARY APPELLATE COURT OBLIGATED TO ACCEPT PETITIONER'S LATE INEFFECTIVE
ASSISTANCE OF COUNSEL CLAIM WHERE IT WAS FILED BY APPELLATE COUNSEL WITHOUT A
SHOWING OF GOOD CAUSE WHERE THE MILITARY APPELLATE COURT HAD NOT YET MADE A
FINAL DECISION IN THE CASE?
II.
QUESTION OF CONSTITUTIONAL IMPORTANCE, NAMELY, WHETHER OR NOT CIVILIAN COURTS
MUST REVIEW A MILITARY MEMBER'S CONVICTION FOR AN INEFFECTIVENESS OF COUNSEL
CLAIM EVEN IF NOT RAISED ON DIRECT APPEAL?
III.
WHETHER OR NOT CIVILIAN COURTS MUST REVIEW A MILITARY MEMBER'S CONVICTION IF THE
MILITARY APPELLATE COURT REFUSED TO ACCEPT AND REVIEW AN INEFFECTIVE ASSISTANCE
OF COUNSEL CLAIM ON DIRECT APPEAL OR THE APPEAL WAS LEGALLY INADEQUATE?
IV.
CAN A VIOLATION OF A FULL AND FAIR MILITARY APPEAL BE EXEMPT OF BEING
PROCEDURALLY DEFAULTED AND BE RAISED AT ANY TIME TO A CIVILIAN COURT?
V.
CAN A MILITARY MEMBER RAISE A LACK OF SUBJECT-MATTER JURISDICTION CLAIM AT ANY
TIME AND ANYWHERE TO INCLUDE DURING HABEAS CORPUS PROCEEDINGS, AND IS A CIVILIAN
COURT OBLIGATED TO ACCEPT, REVIEW, AND ADDRESS THE CLAIM EVEN IF NOT ORIGINALLY
RAISED?
VI.
WHETHER TRIAL COUNSEL'S FAILURE TO PRESENT TO THE JURY FACTS WHICH ARE HIGHLY
PROBATIVE OF AN AFFIRMATIVE DEFENSE WHICH IF ACCEPTED BY A JURY WOULD RESULT IN
PETITIONER'S ACQUITTAL, AND WERE UNDISPUTED AND UNCONTROVERTED BY RESPONDENT IN
HABEAS CORPUS PROCEEDINGS, CONSTITUTES A SUFFICIENT SHOWING OF 'ACTUAL
INNOCENCE' TO EXEMPT HIS CLAIMS FROM THE BAR OF PROCEDURAL DEFAULT?
VII.
DOES SUPREME COURT CASE LAW IN MARTINEZ V. RYAN, EVITTS V. LUCEY, MASSARO V.
UNITED STATES, RHEUARK V. SHAW, DOUGLAS V. CALIFORNIA, AND GRIFFIN V. ILLINOIS
ALTER AND/OR CLARIFY SUPREME COURT PRECEDENT IN BURNS V. WILSON AS TO A CIVILIAN
COURT'S LIMITS IN REVIEWING MILITARY CONVICTIONS?
VIII.
IS A MILITARY MEMBER'S INEFFECTIVENESS OF COUNSEL CLAIM EXCEPTED FROM THE
JURISDICTIONAL BAR IN CIVILIAN COURTS AS AN ESSENTIAL JURISDICTIONAL
PREREQUISITE THAT MUST BE REVIEWED EVEN IF NOT RAISED ON MILITARY APPEAL?
PAGE 1

IX.
IS A MILITARY APPEAL JUDGMENT VOID AB INITIO WHERE THE ORIGINAL MILITARY OPINION
IS CONDUCTED ILLEGALLY BY WAY OF A CONFIRMED-ILLEGALLY-APPOINTED JUDGE AND THE
SUBSEQUENT DECISION IS CONDUCTED WELL AFTER PETITIONER HAD REQUESTED GRANT OF
REVIEW TO THE COURT OF APPEALS FOR THE ARMED FORCES (CAAF), AND NO REMAND EXISTS
FROM THE CAAF FOR THE AIR FORCE COURT OF CRIMINAL APPEALS (AFCCA) TO CONDUCT THE
SUBSEQUENT OPINION, AND ARE THE CIVILIAN COURTS IN A HABEAS PROCEEDING OBLIGATED
TO REVIEW PETITIONER'S CLAIMS, OR IS THERE ANY REMAINING JURISDICTION FOR THE
AIR FORCE COURT VIA ANOTHER AVENUE TO REVIEW PETITIONER'S CLAIMS DUE TO
PETITIONER NOT HAVING FULL, FAIR, AND COMPLETE APPELLATE REVIEW IN ACCORDANCE
WITH ARTICLES 66, 67, AND 70 OF THE UNIFORM CODE OF MILITARY JUSTICE, AND WOULD
A FUTURE OPINION DUE TO THIS FAILURE TO PROVIDE A FAIR APPELLATE REVIEW
CONSTITUTE PETITIONER'S FIRST.APPEAL AND NOT A COLLATERAL ATTACK, CAUSING ANY
NEW SUPREME COURT DECISIONS TO APPLY TO PETITIONER?
X.
THE MILITARY TRIAL COURT LACKED SUBJECT-MATTER JURISDICTION TO PROSECUTE AND THE
MILITARY APPELLATE COURT'S JUDGMENT IS VOID AB INITIO DUE TO A LACK OF SUBJECTMATTER JURISDICTION. ARE CIVILIAN COURTS OBLIGATED TO ADDRESS THESE CLAIMS AT
ANYTIME AND ANYWHERE TO INCLUDE ON APPEAL OF CIVILIAN HABEAS WRIT AND EVEN NOW
IN THE SUPREME COURT?

PAGE 2

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES....

3

OPINIONS BELOW

4

JURISDICTION

..5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

5

RELATED CASES

6

STATEMENT OF THE CASE

8

REASONS FOR GRANTING THE WRIT

14

CONCLUSION

15
INDEX TO APPENDICES

APPENDIX A:

Decision by United States Court of Appeals for the Fifth Circuit

APPENDIX B:

First opinion by Air Force Court of Criminal Appeals (AFCCA)

APPENDIX C:

Second opinion by Air Force Court of Criminal Appeals (AFCCA)

APPENDIX D:

Decision by Court of Appeals for the Armed Forces (CAAF)

APPENDIX E: Habeas Corpus decisions by Court for Fifth District, Eastern Div.
APPENDIX F:

Court of Appeals for the 5th Cir. decision denying rehearing

APPENDIX G:

Letter from military appellate division on providing replacement

record of trial and other related documents
APPENDIX H:

Cease and desist request to Fifth Circuit

APPENDIX I:

Electronic Copouts showing continued loss or misplacement of inmate

legal documents
APPENDIX J:

Ineffective Assistance of counsel Affidavit originally submitted at

the military appeal and later submitted on habeas to the District Court.
APPENDIX

K:

Petitioner's

Motion

to

vacate

(23

August

2013);

Petitioner's

Petition for Grant of Review (6 September 2013); Government's request to
treat Petitioner's motion to vacate as reconsideration (28 October 2013);
Court's

grant

of

treating

Petitioner's

motion

as

reconsideration

(12

November 2013)
APPENDIX L:

Government motions opposing Petitioner's IAC submission to AFCCA

due to lack of jurisdiction
APPENDIX M: Petitioner's charge sheet
APPENDIX N: Petitioner's Enlisted Performance reports which depict where
petitioner was located at time of offenses
APPENDIX 0: Petitioner's brief requesting rehearing to the Court of Appeals for
the Fifth Circuit
APPENDIX P: Additional motions raising Lack of Subject-Matter Jurisdiction
i.

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

J

{

!

\

/

PAGE 3

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorary issue to review the judgment below.
OPINIONS BELOW
1-

The opinion of the United States Court of Appeals for the Fifth Circuit

appears at Appendix A to the petition. It is unpublished.
2-

The opinions of the United States District Court of the Fifth Circuit

appear at Appendix E to the petition. Reported as 2019 U.S. LEXIS 35347.
3-

The first opinion of the United States Air Force Court of Criminal Appeals

(AFCCA) appears at Appendix B to the petition and is unpublished. Reported as
2013 CCA LEXIS 680, ACM 37957.
4-

The Second opinion of the Air Force Court of Criminal Appeals (AFCCA)

appears at Appendix C to the petition and is unpublished. Reported as 2014 CCA
LEXIS 607, ACM 37957(recon).
5-

The opinion of the Court of Appeals for the Armed Forces (CAAF) appears at

Appendix D to the petition and is unpublished.
JURISDICTION
The date on which the United States Court of Appeals for the Fifth Circuit
decided my case was April 6, 2021.
A timely petition for rehearing was filed in my case. This timely petition for
rehearing was denied by the United States Court of Appeals for the Fifth Circuit
on 18 May 2021, and a copy of the opinion appears at Appendix A. A copy of the
order denying rehearing appears at Appendix F.
The jurisdiction of this Court is invoked under 28 U.S.C.

§1254,

§1259 and

§1251. This Court has the power to issue Petitioner's writ of habeas corpus ad
subjiciendum.

PAGE 4

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, 6th Amendment, Due Process
United States Code of Military Justice (UCMJ)
10 U.S.C. §866
10 U.S.C. §867
10 U.S.C. 870
10 U.S.C. §810
10 U.S.C. §844
Rule for Courts Martial (RCM) 707(d)
Air Force Court

of Criminal Appeals rules 19(b)

Air Force Court

of Criminal Appeals rules 19(d)

Crim. App. R. 150.24
Crim. App. R. 150.25
Crim. App. R. 150.19

\

PAGE 5

RELATED CASES
Burns v. Wilson,

346 U.S.137,

73 S. Ct.

1045, 97 L. Ed.

1508 (U.S. S. Ct.

(1953))
Evltts v.

Lucey,

105 S. Ct. 830, 83 LED 2d 821, 469 U.S. 387

(U.S. S. Ct.

(1984))
Massaro v. United States, 538 U.S. 500 (U.S. S. Ct. (2003))
Martinez v. Ryan, 182 LED 2d, 566 U.S. 1 (U.S. S. Ct. (2012)
Johnson v. Zerbst, 304 U.S. 458 (U.S. S. Ct. (1938))
Diaz v. JAG of the Navy, 59 MJ 34 at 39 (Court of Appeal for the Armed Forces
(CAAF 2003))
United States v. Doty, 51 MJ 464, 465 (CAAF (1999))
United States v. Murphy, 50 MJ 4, 5 (CAAF 1998)
Witham v. United States, 355 F. 3d. 501, 2004 U.S. App. LEXIS 427 (U.S. Ct. App.
6th Cir. at *10)
STRUNK v. United States, 412 U.S. 434, 37 LED 2d 56
Johnson v. Zerbst, 304 U.S. 458 (U.S. S. Ct. (1938))
Douglas v. California, 372 U.S. 353, 83 S. Ct. 814, 9 L. Ed. 811 (1963)
Griffin v. Illinois, 351 U.S. 12, 76 S. Ct. 585, 100 L. Ed 891 (1956)
United States v. LaBella, 2014 CCA LEXIS 385
United States v. Riley, 55 MJ 185, 188 (CAAF 2001)
United States v. Riley, 58 MJ 305 (CAAF 2003)
United States v. Rodriguez, 67 MJ 110 (CAAF 2009)
Bowles v. Russell, 551 U.S. 205, 127 S. Ct. 2360, 168 L. Ed. 2d 96 (2007)
Mt. Healthy City Sch. Dist. Bd. of Educ. v. Doyle, 429 U.S. 274, 278, 97 S. Ct.
568, 571, 50 L. Ed. 2d 471 (1977)
Louisville & Nashville R.R. Co. v. Motley, 211 U.S. 149, 152, 53 L. Ed. 126, 29
S. Ct. 42 (1908)
Sumner v. Mata, 449 U.S. 539, 547 n.2, 66 L. Ed. 2d 722, 101 S. Ct. 764 (1981)
United States v. Alabama, 791 F. 2d. 1450, 1454 (11th Cir. 1986), cert, denied,
479 U.S. 1085, 94 L. Ed. 2d 144, 107 S. Ct. 1287 (1987)
Jones v. Giles, 741 F. 2d 245, 248 (9th Cir. 1984)
Alabama Hosp.

Ass'n v.

United States,

228 Ct. Cl.

176, 656 F. 2d 606, J510

(1981), cert, denied, 456 U.S. 943, 72 L. Ed. 465, 102 S. Ct. 2006 (1982)
United States v. Wright, 160 F. 3d. 905, 908 (2d. Cir. 1998)
Ex Parte Milligan, 18 L. Ed. 281, 4 Wall 2 at 132 (U.S. S. Ct. (1866))
United States v. Janssen, 73 MJ 221
United States v. Dalmazzi, 76 MJ 1 at 2, 2016 CAAF LEXIS 995
PAGE 6

Richards v. Wilson, 2018 CCA LEXIS 509 (AFCCA)
Chapman v. United States, 75 MJ 598 (AFCCA)
Delta Coal Program v. Libman, 743 F. 2d. 852 at 854 (U.S. Ct. Appeal for the 5th
Cir. (1995)), 1995 U.S. App. LEXIS 36690
Pleasant v. Thaler, 2011 U.S. Dist. LEXIS 14569 at 6-7
Highland Vill. Parents Group v. United States Fed. Highway, 562 F. Supp. 2d. 857
at 862 (2008 U.S. Dist Ct. 5th Cir.)
United States v, Humphries, 2011 CCA LEXIS 312 (AFCCA 2011)

PAGE 7

1

STATEMENT OF THE CASE
Petitioner

was

tried by

a military

courts martial,

On

13

July

2013

petitioner's case was affirmed by the Air Force Court of Appeals. See Appendix
A. Petitioner received a second opinion as a "reconsideration." See Appendix B.
Petitioner was not timely notified by appellate counsel of the finality of his
military appeals.

Further,

Petitioner had lost his military record of trial

while he was in military custody. While on appeal, Petitioner informed appellate
counsel that he did not have his record of trial due to military staff losing
his property. Petitioner was transferred from military custody to the Federal
Bureau

of

Prisons

(FBOP)

in

2016.

After

Petitioner

arrived

at

the

FBOP,

Petitioner once again began pursuing recovering a replacement record of trial to
include any other trial-related documentation. See Appendix G. While in FBOP
custody, Petitioner was also precluded from reviewing his record of trial and
other pertinent documents. Petitioner submitted to the civilian courts a cease
and desist request. See Appendix H. While in FBOP custody Petitioner's trial
documents

have

been lost or misplaced by FBOP staff multiple times during

transfers. Appendix I. While in FBOP custody, after Petitioner contacted the
Appellate division

(Appendix G), Petitioner received a replacement record of

trial. In addition to this, Petitioner received a copy of the appellate record
which he never had prior to this. After some review of this appellate record,
Petitioner discovered Appellate counsel's ineffectiveness.
Petitioner filed for Habeas Corpus review in the Fifth Circuit on February
9,

2018.

Petitioner

submitted

an affidavit

to military

appellate

counsel

claiming the trial ineffectiveness of counsel. See Appendix J. Petitioner in his
habeas writ to the civilian court claimed Appellate counsel's ineffectiveness by
failure to present Petitioner's IAC claims to the military appellate court.
Petitioner also claimed that he did not receive full and fair appellate review
among other claims. Respondent in that Habeas proceeding did not controvert or
dispute petitioner's contentions. Instead, Respondent claimed that Petitioner
was procedurally barred for a failure to present his claims to the military
courts by addressing Supreme court precedent in Burns v. Wilson. Petitioner now
brings this issue to this court in light of Martinez v. Ryan, Evitts v. Lucey,
Massaro v. United States, Rheuark v. Shaw, Douglas v. California, and Griffin v.
Illinois which the Supreme Court had declared that Trial—IAC claims are not
procedurally defaulted,
counsel

just

as

it

the constitution guarantees a defendant an effective
guarantees

a

defendant

an

effective

trial

counsel,

ineffectiveness of trial and appellate counsel are basic constitutional rights,
PAGE 8

and ineffectiveness of appellate counsel which precludes a claim from judicial
review is also sufficient to overcome procedural default. However, none of these
cases have addressed whether they apply to military court-martial cases raised
in a

civilian

court.

Burns v.

Wilson does not adequately cover the cases

mentioned, causing a very limited window of review as was applied by the Fifth
Circuit.

Additionally,

deviates

from

petitions

other

that

the

Fifth

districts

claimed

Circuit

in reviewing court-martial claims

which have

reviewed military habeas

ineffectiveness of counsel.

Further,

corpus

since. Burns v.

Wilson, the military courts have changed their position regarding habeas corpus
review stating that the military lack the authority to review habeas corpus
writs. See for example Richards v. Wilson, 2018 CCA LEXIS 509 (2018 AFCCA) and
Chapman v. United States, 75 MJ 598 at 600 (2016 AFCCA).
On

Direct

counsel claims

Appeal,

Petitioner

submitted

his

to his military appellate counsel.

ineffective

assistance

See Appendix J.

of

However,

appellate counsel failed to give to the military appellate court good cause for
the late filing. Because appellate counsel failed to present good cause (even if
late), and even though the military appellate court had not yet made a final
determination in
Petitioner's

the case,

affidavit.

All

the military court did not accept nor reviewed
of

petitioner's

submissions were submitted via

appellate counsel. During direct appeals, all of Petitioner's submissions were
done by

appellate

counsel

to

include

all motions.

This is undisputed and

uncontroverted. Appellate counsel submitted Petitioner's claim on 24 June 2014
(Appendix J) and the Air Force Court conducted its opinion on 14 August 2014
(Appendix C). Without a proper showing of good cause, the military did not have
jurisdiction to accept nor review Petitioner's IAC claims. See AFCCA rules 19(b)
and 19(d) (Crim. App. R. 150.24, 150.25, and 150.19(d)). During direct appeals,
the government opposed the submission of Petitioner's IAC claim arguing lack of
jurisdiction.

See Appendix L. The appellate review does not enumerate the IAC

claim (See Appendix C at page 6) and the military appellate court explicitly
(manifestly) denied accepting the claim for review (Appendix C at page 7). Is
the civilian court now obligated to review the IAC claim due to the military
court's refusal to review it? Is the appellate counsel's deficiency by failure
to show good cause sufficient to apply Martinez v. Ryan to Petitioner's military
case? Did the military appellate court err by failing to accept Petitioner's IAC
claim despite a appellate counsel's failure to show good cause?
Petitioner also did not receive a full, fair and adequate appellate review.
Petitioner

claimed

this

in his

habeas
PAGE 9

corpus writ to the civilian court.

However, during that process the Respondent in his motion for summary affirmace
raised a lack of subject-matter jurisdiction argument. Upon this statement being
made

by

Respondent,

Petitioner

reviewed

for

the

lack

of

subject-matter

jurisdiction and discovered that his appellate review was illegally conducted.
Specifically, that his first appellate decision was conducted by Judge Soybel
who was appointed in violation of the appointments clause. Appendix B. See also
United States v. Janssen. As shown, this, opinion was made on 18 July 2013. On 6
September 2013 Petitioner moved for grant of review to the Court of Appeals for
the Armed Forces (CAAF). In accordance with United States v. Riley, this timely
filing for grant of review to the CAAF divested jurisdiction in the AFCCA and
vested

the

CAAF with jurisdiction.

No

remand was

ever made by

the

CAAF

instructing the AFCCA to conduct the (Appendix C) reconsideration. What the
government did was resort to a procedural maneuver to remedy the jurisdictional
bar

placed

on

the

AFCCA court when Petitioner moved for grant of review.

Specifically, the government requested to go back in time to a motion Petitioner
had submitted prior-to the grant of review request, convert that into a request
for reconsideration,
Therefore

the

so that the AFCCA could conduct the appellate review.

government’s

motion

to

"treat

as

reconsideration"

did not

constitute a qualifying "petition for reconsideration" of the original decision
under CAAF rules.

A lack of subject matter jurisdiction cannot be remedied

retroactively by resort to procedural rules. See Delta Coal Program v. Libman.
The government's motion (Appendix K) did not toll the limitations period because
it was filed after the limitations period had expired. See Pleasant v. Thaler.
The AFCCA had 60 days from the opinion (Appendix B) to conduct reconsideration
on its own as imposed by Congress. The court may not expand its jurisdiction
beyond
Highway,

this

limit.

562

jurisdictional

F.

See Highland Vill.

Supp

Parents Group v.

United States Fed.

2d.

857

at

862.

A military court has statute-based

limitations

and

do

not

have

the

authority

to

even

create

equitable exeptions to jurisdictional requirements. In other words, the military
appellate courts cannot expand its jurisdiction beyond the limits imposed by
Congress. Congress gave the military appellate courts 60 days to reconsider on
its own or before Petitioner filed for grant of review. The AFCCA could only
regain jurisdiction via a remand from CAAF. See United States v. Riley. On
remand,

the AFCCA can only take action that conforms to the limitations and

conditions prescribed by the remand. See United States v. Humphries. No remand
exists giving AFCCA jurisdiction to conduct the second opinion (Appendix C).
This Court has expressed that when an appeal has not been prosecuted in the
PAGE 10
\0

manner directed, within the time limited by the acts of Congress, it must be
dismissed for want of jurisdiction. See Bowles v. Russell at 104. Therefore, the
question remains is, whether Petitioner is not procedurally barred, and whether
the civilian court is obligated to review and to conduct a full appellate review
of petitioner’s case since the military courts lack jurisdiction at this point,
issue a reversal of petitioner's military conviction in its entirety, or other
alternative. Petitioner did not request a retrial.
As shown, Petitioner's military appellate decisions are legally inadequate.
The first decision was conducted by an illegally appointed Judge and the second
decision conducted well after Petitioner submitted for review to the CAAF.
Because no remand exists, was the first and second military review legally
sufficient to meet Articles 66, 67, and 70 of the Uniform Code of Military
Justice,

10 USC §866,

§867, and §870 and if not legally sufficient, is the

civilian court obligated to review all of Petitioner's claims because he has not
received a direct appeal as guaranteed in the Constitution? Will this be an
exempt to being procedurally defaulted?
Petitioner raised the lack of subject-matter jurisdiction during the habeas
corpus proceedings. However, Petitioner had not included them in the initial
brief submitted to the civilian court. Petitioner raised this claim in response
to Respondent's statement at the habeas appeal level that jurisdiction had
ceased.

Petitioner

claimed

that

the

trial

court

lacked

subject-matter

jurisdiction because it violated Article 10, UCMJ and Rules of Court-Martial 707
by bringing him to trial after the 120-day brightline jurisdictional time that
bars prosecution.
Appendix M.

Petitioner was preferred charges on 12 October 2010.

However,

See

arraignment occurred at trial when Petitioner pled not

guilty at on 22 February 2012. In accordance with Article 10, UCMJ and the 6th
Amendment, The Air Force was barred from prosecuting Petitioner. See also United
States v. Doty. See also United States v. Wilder, and STRUNK v. United States.
Petitioner also did not originally submit in his brief the lack of subjectmatter

jurisdiction

claims as to the military appellate review due to the

illegally appointed judge and the subsequent opinion that was conducted without
a remand., Is the fact that they were presented during habeas corpus proceedings,
even

though

submitted

after

Respondent

raised

the

argument

in

reply

and

Petitioner had not presented in the initial brief, sufficient to obligate the
civilian courts to review the lack of subject-matter jurisdiction claims?
Has Supreme Court precedent in Burns v. Wilson been altered by Martinez v.
Ryan (Appellate ineffectiveness during direct appeal by failing to comply with
PAGE 11

court's requirements precluding adjudication on the merits of his claims is not
procedurally barred), Evitts v. Lucey (Appellate counsel ineffectiveness causes
an

appeal to not be adjudicated in accordance with due process of

law as

guaranteed under the Constitution just like Trial ineffectiveness), Massaro v.
United States (Ineffectiveness of counsel not procedurally barred because there
has

been

no

opportunity

to

develop

record

the

on

the

merits

of

these

allegations), Rheuark v. Shaw (when an accused is given a right to appeal, it
must meet the requirements of due process and equal protection), Douglas v.
California, and Griffin v. Illinois as to a civilian court's limits in reviewing
military

convictions?

Is

a

civilian

court

obligated

to

review

a military

member's IAC claim regardless if the claim was not submitted for review in a
military appellate court? Burns v. Wilson does not expressly give guidance as to
this matter and the circuits are inconsistent in applying the procedural bar as
was made in Petitioner's case.
"It is not until that appeal of right is complete that we can rest assured
the interests of justice have been served." See United States v. Wright.
"Petitioner is not being afforded an appellate review of his findings and
sentence that comports with the requirements of Article 66 and Article 70. These
rights must be recognized, enforced and protected by the Government, by the
appellate attorneys, by the Court of Criminal Appeals, and by this Court." See
Diaz v. JAG of the Navy.
Petitioner provided undisputed and uncontroverted evidence that if accepted
by a jury would result in Petitioner's acquittal. Namely, that Appellate counsel
had witnesses that could raise reasonable doubt as to the timeframe of the
allegations that he failed to present to the jury, and the fact that Petitioner
was

not

in

the

Continental United States . at the time of the allegations.

Petitioner was charged with a timeframe within the Continental united states
between

1 August 2004 and on or about 30 September 2004.

See Appendix M.

However, Petitioner was stationed in Hawaii since June 2004. See Appendix N.
These documents were provided to the civilian court on habeas review and were
not controverted or disputed. At trial no evidence was presented that showed
Petitioner

was

within

timeframe.

Is a civilian court obligated to review whether this showing is

sufficient

showing

of

the

Continental

'actual

innocence'

United
to

states
exempt

during
the

the

claims

charged
from

the

procedural default bar?
The Fifth Circuit has applied Burns v. Wilson without considering other
cases mentioned above.

For this reason, Petitioner requests that this Court
PAGE 12

decide for all courts under the United States Flag whether they are obligated to
review military IAC claims raised for the first time in a civilian court among
other issues mentioned above. Petitioner believes Burns v. Wilson is outdated
and is being applied without considering other Supreme Court cases that alter
what is a substantial Constitutional right in regards to military appellate
challenges on collateral review.
The civilian court failed to address Petitioner's lack of subject matter
jurisdiction claims although Petitioner submitted the claims during the habeas
corpus prooceedings. See Apendix E. Petitioner in his request for a rehearing
expressed the failure to address the lack of subject matter jurisdiction claim
among other claims raised before this court. See Appendix 0. Petitioner was
denied the rehearing. See Appendix F.
This Court has stated that a lower court's failure to follow Supreme Court
precedent would be anarchy. The fifth Circuit does so by refusing to apply other
Supreme Court cases in Petitioner's case by keeping focusing only on the 1953
Burns v. Wilson case as if no other Supreme Court caselaw applies to military
members seeking to challenge their convictions via habeas corpus in a civilian
court. Since Burns v. Wilson, the Supreme Court has expanded or clarified other
circumstances which are excepted from the procedural bar doctrine. The Supreme
Court should now declare whether they apply to us military-convicted.

PAGE 13

n

REASONS FOR GRANTING THE PETITION
The Fifth Circuit has applied Burns v. Wilson without acknowledging whether
Martinez v. Ryan, Evitts v. Lucey, Massaro v. United States, Rheuark v. Shaw,
Douglas v. California, and Griffin v. Illinois alter or clarify Supreme Court
precedent established in Burns v. Wilson regarding the limitations of civilian
courts

reviewing

military

court-martial

convictions

in

habeas

corpus

proceedings. Burns v. Wilson does not address whether the claims mentioned in
the

aforementioned

cases

apply

to military

court-martial

cases

seeking to

challenge their convictions on habeas corpus. Burns v. Wilson does not clarify
whether those circumstances in the aforementioned cases are exceptions that also
would

apply

for

military

members

seeking

to

challenge

their

convictions.

Petitioner requests that this Court decide for all courts under the United
States flag whether they are obligated to review military IAC claims raised for
the first time in a civilian court. Burns v. Wilson is outdated and is being
applied without considering other newer Supreme Court cases that alter and
redefine what is a substantial Constitutional right in regards to military
appellate challenges on collateral review.
Further, the Fifth Circuit deviated from Supreme Court precedent by failing
to review a lack of subject matter jurisdiction claim even if the applicant for
habeas corpus did not originally submit the claim for review. Because it is not
clear to the Fifth Circuit that a military member can raise a lack of subject
matter jurisdiction claim at any time and anywhere, which includes as a reply to
Respondent's, motion to dismiss, Petitioner seeks clarification.
Although this court rarely grants review via certiorari, Petitioner's case
is

an

exception because military habeas cases are rarely seen in civilian

courts. Petitioner's case is the first reviewed by the Fifth Circuit in over 10
years. Further, this Court should ensure Petitioner receives the appeal he is
entitled to.

Petitioner claimed that the military trial court and appellate

court lacked subject matter jurisdiction. The trial court made a speedy trial
violation by exceeding the 120 days to try Petitioner in violation of Article
10, UCMJ and Rules for Courts-Martial 707 which barred prosecution. The military
appellate

court

used

administrative

procedures

to

remedy

retroactively

jurisdiction which had ceased to exist. The civilian courts have failed to do
their duty and verify these facts. Petitioner's questions pose specific issues
related

to

the

collateral

review by a civilian court which have not been

addressed since 1953 in Burns v. Wilson. In fact, this Court and the military
courts have changed their position as to whether a military court have the power
PAGE 14

to review habeas corpus petitions. The military courts say no. Therefore, Burns
v. Wilson is clearly outdated in a multitude of ways and the civilian courts and
military members

seeking to challenge their convictions in a civilian court

require guidance from this Court.
The Court of Appeals has entered a decision in conflict with the decision
of other courts of appeals. Namely, the Fifth Circuit when reviewing military
convictions

on habeas

does

not

acknowledge

other

Supreme

Court precedents

mentioned above. Additionally, the Appellate court has failed to fulfill their
duty to review lack of subject matter jurisdiction claims raised at any time
which calls

for an excercise of this Court's supervisory power.

Last,

the

Appeals court has decided an important federal question in a way that conflicts
with relevant decisions of this court. Namely, that all Supreme Court decisions
and procedural bar exceptions after Burns v. Wilson apply to military cases
reviewed by civilian courts.

CONCLUSION
The petition for writ of certiorari should be granted.

Respectfully Submitted,

Rafael Verdejo^&uiz, #l/67UV035
^jjf^day of May^2021
^------'

PAGE 15

